                                                  NATIONAL SCIENCE FOUNDATION
                                                   OFFICE OF INSPECTOR GENERAL
                                                     OFFICE OF INVESTIGATIONS

                                             CLOSEOUT MEMORANDUM

Case Number: A04040023                                                          11          Page 1 of 1



         An allegation was received that the author of a published research paper acknowledging NSF
         support stole concepts from a manuscript under review 6y that author (the subject).' The
         university2 of the subject independently received the complainant's allegations, and completed an
         inquiry. The University found no research misconduct by the subject. We concur.

         The subject provided extensive laboratory documents to the University to show that the
         questioned research publication was a culmination of work underway before the complainant's
         manuscript was received for review. The University accepted the provenance of the work.
         Additionally, experts consulted by the University concluded that the subject's publication, while
         related, did not mirror concepts taken from the complainant's submitted manuscript.

         The complainant cites a delay in the publication of his paper as evidence for the theft of his
         concepts. However, the length of the publication process for the complainant's manuscript is
         unremarkable. The complainant points to a missing citation in the subject's paper to the
         complainant's previously published 2003 work as evidence of intellectual property theft.
         However, neither experts consulted by the University, nor the reviewers or editors of the subject's
         publication support a claim of any missing citation. The complainant's article of 2003 precedes
         the subject's publication of 2004; the scientific community will in time evaluate the relative
         contributions of these articles.

         We conclude that there is no substance to the allegation.

         Accordingly, this case is closed.




         2
          ' Redacted.
             Redacted.



NSF OIG Form 2 (1 1102)
